No. 19A
19A___
IIN
N THE
THE

Supreme Court
the liniteb
United iptato
States
'upreme
Court of
of the
COMPANY
CANADA,
LTD.,
FORD M
OTOR C
OMPANY OF C
ANADA, L
TD.,
FORD
MOTOR
Applicant,
v.
BELL,
G
EORGE B
ELL, ET AL.,
AL.,
GEORGE
Respondents.

APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL

KATHERINE
KATHERINE B. WELLINGTON
WELLINGTON
LOVELLS
HOGAN L
OVELLS US LLP
HOGAN
125 High Street
Suite 2010
Boston, MA 02110

ELLSWORTH
JESSICA L. E
LLSWORTH
JESSICA
Counsel of Record
REEDY
R
EEDY C. S
WANSON
SWANSON
LOVELLS
HOGAN L
OVELLS US LLP
HOGAN
555 Thirteenth Street, N.W.
Washington, DC 20004
(202) 637-5600
jessica.ellsworth@hoganlovells.com

March 2, 2020

Counsel for Applicant

APPLICATION
To the Honorable Elena Kagan, Associate Justice of the Supreme Court of the
United States and Circuit Justice for the Ninth Circuit:
Pursuant to Rule 13.5 of the Rules of this Court and 28 U.S.C. § 2101(c), applicant Ford Motor Company of Canada ("Ford")
(“Ford”) respectfully requests a 30-day extension of time, to and including May 1, 2020, within which to file a petition for a
writ of certiorari to review the decision of the California Court of Appeal in this
case.
1.
1.

The California Superior Court for San Francisco County issued its

opinion directing judgment in favor of Ford on June 16, 2017. See Order Granting
Defendant’s
Defendant's Motion for Entry of Judgment, Automobile Antitrust Cases I, II, No.
CJC-03-004298 (Appendix A). The California Court of Appeal for the First Appellate District issued its decision reversing the trial court on September 25, 2019. See
In re Automobile Antitrust Cases I and II, No. A152295 (Appendix B). Ford sought
rehearing, which the court denied after modifying its opinion on October 23, 2019
(Appendix C). Ford sought a writ of certiorari in the Supreme Court of California,
which denied review on January 2, 2020. See In re Automobile Antitrust Cases I
and II, No. S258963.
5258963. Unless extended, the time to file a petition for certiorari in
this Court will expire on April 1, 2020. This application is being filed more than ten
days before the petition is currently due. See Sup. Ct. R. 13.5. The jurisdiction of
this Court will be invoked under 28 U.S.C. § 1257(a). See Cox Broad. Corp. v. Cohn,

1
1

420 U.S. 469, 482-483 (1975) (acknowledging this Court’s
Court's jurisdiction over a state“finally decided").
decided”).
court case when a federal issue has been "finally
2.
2.

This case deepens an existing conflict among lower courts regarding an

important and recurring issue in federal preclusion law. In Taylor v. Sturgell, 553
U.S. 880 (2008), this Court held that claim preclusion can apply, consistent with
“assume[d] control over the litigation in which [a]
federal law, when a party has "assume[d]
rendered.” Id. at 895 (internal quotation marks omitted) (first alterjudgment was rendered."
ation in original). Because such a person has already "had
“had the opportunity to present proofs and argument, he has already had his day in court even though he was
not a formal party to the litigation."
litigation.” Id. (internal quotation marks omitted). In this
case, the California Court of Appeal adopted an erroneous test for the necessary
“control,” leading it to break from the decisions of several lower courts. See
level of "control,"
App'x
App’x B 19-20.
3.
3.

This class-action suit began nearly twenty years ago, in 2003, when

more than a dozen lawsuits filed in California were coordinated into this proceeding. Id. at 2. The plaintiffs allege that Ford, along with other manufacturers and
associations, "conspired
“conspired to keep lower-priced, yet virtually identical, new cars from
being exported from Canada to the United States."
States.” Id. Similar actions were filed in
various state and federal courts all over the country. See id. at 2-3. All of these actions were premised on the same alleged conspiracy, and all plaintiffs contend that
the possibility of additional Canadian vehicles in the United States would have led

2

all automobile manufacturers to lower their suggested retail prices on all vehicles
sold in the United States. See id.
4.
4.

The federal actions were eventually consolidated in the District of

Maine by the Judicial Panel on Multidistrict Litigation. Id. at 3. The federal plaintiffs amended their complaint to add state law class-action claims, including California law claims. Id. The California state court and federal MDL court then brokered an arrangement among the various parties and counsel designating the federal MDL as the "lead
“lead action.”
action." Id. All discovery and pre-trial litigation—for both
the federal and state cases—would occur under the auspices of the federal MDL. Id.
Counsel for the state and federal parties entered into a "joint
“joint prosecution agreement”
“[t]he lawyers"
lawyers”
ment" to handle the coordinated proceedings. Id. at 17. As a result, "Mlle
“were the lawyers in the federal case, for years,"
years,” through
in this California action "were
all of discovery and "briefing
“briefing of and argument on the ultimate summary judgment
motion.”
App’x A 6.
motion." App'x
5.
5.

After the federal MDL court heard oral argument on summary judg-

ment but before its decision, the plaintiffs pressing the California law class claims
in the federal MDL had a sudden change of heart. Id. at 1-2. They moved to voluntarily dismiss their claims under Federal Rule of Civil Procedure 41. Id. at 2. Over
Ford’s
Ford's objection, the federal MDL court granted that motion and dismissed the California claims. App'x
App’x B 7. The federal MDL court proceeded to grant summary
judgment in favor of all defendants on all remaining claims in federal court. Id.
at 8.

3

6.
6.

Proceedings resumed in these California state-court cases, with the

same counsel pressing the same class-action claims on behalf of different named
lead plaintiffs. App'x
App’x A 4, 6. Ford moved for judgment, asserting that plaintiffs
were barred from pressing these claims under principles of claim and issue preclusion. Id. at 2. The trial court granted that motion on claim-preclusion grounds. Id.
at 12. As the court explained, "the
“the main purpose of res judicata is to protect not just
defendants subject to relitigation, but also more generally to inhibit multiple litigation causing vexation and expense to the parties and wasted effort and expense in
administration.” Id. (internal quotation marks omitted). The court found
judicial administration."
“to leave a forum where
that the doctrine therefore barred plaintiffs from choosing "to
they have a full opportunity to litigate all their claims, have that case go to final
judgment, and * * * then engage in further suits on the same cause of action”
action" in California. Id.
7.
7.

App’x B 2. The court considThe California Court of Appeal reversed. App'x

ered two different forms of nonparty preclusion under Taylor. First, the court re“adequately represented"
represented” by the parjected Ford’s
Ford's argument that the plaintiffs were "adequately
ties to the federal MDL. Id. at 13-19 (internal quotation marks omitted). Then,
turning to "control,"
“control,” the court determined that this Court’s
Court's precedent required Ford
“directing the federal court plaintiffs as
to show that the California plaintiffs were "directing
litigation.” Id. at 19. The court
to the steps they should take in advancing the litigation."
found the evidence insufficient to support such a showing. Id. at 19-20. But the
court acknowledged that courts in other states had reached the opposite conclusion

4

“in these circumstances."
circumstances.” Id. at 20 (collecting cases). The court below "respectfully
“respectfully
"in
with” those courts’
“conclusions.” Id.
disagree[d] with"
courts' "conclusions."
8.
8.

Ford petitioned for rehearing, arguing that the court had applied a

more stringent definition of "control"
“control” than this Court had articulated in Taylor. See
App’x C 1-2. The court added a paragraph of analysis regarding the test for "con“conApp'x
trol,” rejecting the definition advanced by Ford without explaining how its definition
trol,"
squared with Taylor. Id. The court otherwise denied rehearing. Id. The California
Supreme Court denied Ford’s
Ford's petition for certiorari.
9.
9.

The decision below exacerbated an acknowledged division among lower

“controlled” another within the
courts regarding when a party may be said to have "controlled"
meaning of Taylor. App'x
App’x B 20. By applying the wrong test, the California court in
this case placed itself on the wrong side of that split. Id. The frequency of nationwide class actions and MDL proceedings ensures that this issue is likely to recur.
This Court’s
Court's review is therefore warranted to resolve important questions left open
by Taylor and guide lower courts regarding the proper application of federal preclusion principles in such cases.
10.
10.

Ford has retained Jessica Ellsworth of Hogan Lovells US LLP as coun-

sel to file a petition for writ of certiorari. Over the next several weeks, counsel is
occupied with briefing deadlines and arguments for a variety of matters, including:
(a) oral argument in Eni US Operating Co. v. Transocean Offshore Deepwater Drilling, Inc., No. 4:13-cv-3354 (S.D. Tex.), on March 5; (b) a petition for writ of certiorari
in U.S. ex rel. J. William Bookwalter, III, M.D. v. UPMC, No. 18-1693 (3d Cir.), due

5

on March 19; (c) an amicus brief in support of the petition for certiorari in Ford Motor Company v. United States, No. 19-1026, due on March 19; (d) oral argument in
New Jersey Coalition of Automotive Retailers v. Mazda Motor of America, Inc., No.
19-2961 (3d Cir.), due on March 24; (e) a response brief in Stand Up for California
v. United States, et al., No. 19-5285 (D.C. Cir.), due on March 27; (f) an opening
brief in United States ex rel. Integra Med Analytics LLC v. Providence Health &
Services, No. 19-56367 (9th Cir.), due on April 1; (g) a brief in Ezaki Glico Kabushiki
Kaisha v. Lotte International America Corp., Nos. 19-3010, 19-3147 (3d Cir.), due on
May 6; and (h) preparation for oral argument in Tech Pharmacy Services LLC v.
Alixa Rx LLC, No. 19-1488 (Fed. Cir.); Ford Global Technologies, LLC v. New World
International, LLC, No. 19-1746 (Fed. Cir.); and Merck Sharp & Dohme Corp., et al.
v. Microspherix LLC, No. 2197(L) (Fed. Cir.). Applicants request this extension of
time to permit counsel to research the relevant legal and factual issues and to prepare a petition that fully addresses the important questions raised by the proceedings below.
For these reasons, Applicants respectfully request that an order be entered
extending the time to file a petition for certiorari to and including May 1, 2020.
Respectfully submitted,

WZbA
.4 1 /4 024-aUtAMP-1
KATHERINE B. WELLINGTON
HOGAN LOVELLS US LLP
125 High Street
Suite 2010
Boston, MA 02110

JESSICA L. ELLSWORTH
Counsel of Record
REEDY C. SWANSON
HOGAN LOVELLS US LLP
555 Thirteenth Street, N.W.
Washington, DC 20004

6

(202) 637-5600
jessica.ellsworth@hoganlovells.com
March 2, 2020

Counsel for Applicant

7

